No. 19-107
In The

Supreme Court of tfje GHmteti States
Vinc

ent

Asa

ro

,

Petitioner,

v.
United

States

of

America

,

Respondent.
On Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
PROOF OF SERVICE
I, Anton Metlitsky, a member of the bar of this Court, hereby certify that, on
this 18th day of September 2019, all parties required by the Rules of this Court to
be served have been served. Three copies of the Brief of the National Association of
Federal Defenders and FAMM as Amici Curiae Supporting Petitioner in the abovecaptioned case were deposited with FedEx, a third-party commercial carrier, for
t

delivery to the Parties’ Counsel of record on the attached service list. I further
certify that an electronic copy of the brief has been emailed to counsel of record at
the email addresses included on the attached service list.

SERVICE LIST (No. 19-107)
Lisa Schiavo Blatt

Willia

ms

& Conn

olly

725 12th Street, NW
Washington, DC 20005
(202) 434-5000
lblatt@wc.com

LLP

Counsel for Petitioner Vincent Asaro
Noel J. Francisco, Solicitor General

United

States

Department

of

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
Supreme CtBriefs@usdoj. gov

Justi

ce

Counsel for Respondent United States of America

i

2

